docket no.:

W-IHI?

Supreme Court of the United States

SEPIDEH CIRINO
Petitioner,
v.
OCWEN LOAN SERVICING, LLC, et al.
Respondents.
On Petition for a Writ of Certiorari
to the U.S. Court of Appeals for the Ninth Circuit
Ninth Circuit case no. 19-55817
U.S. Dist. Ct., C.D. Cal., case no. 16-CV-00409

FILED
JAN 0 4 2021

PETITION FOR WRIT OF CERTIORARI

Sepidah Cirino
27495 Hidden Trail Road
Laguna Hills, CA 92653-5875
Sally, cirino @yahoo. com
(949) 238-3774
In Pro Se

RECEIVED
APR - 5 2021

a

QUESTIONS PRESENTED FOR REVIEW
1. How can a mortgagor collect on more than the
amount of the lien secured by the deed of trust
when a debtor in a Chapter 7 bankruptcy in
California, as well as similarly situated nonjudicial
foreclosure states which utilize a promissory note
as the promise to pay and deed of trust as the
security lien for the mortgage, receives a discharge
pursuant to 11 U.S.C. §524, when the debt has
been discharged in personam?

l

ra

PARTIES TO THE PROCEEDING

SEPIDEH CIRINO; and
-Plaintiff/Appellant/Petitioner

OCWEN LOAN SERVICING, LLC;
WESTERN PROGRESSIVE, LLC; and
WELLS FARGO BANK, N.A, as Trustee for holders
of IMPAC SECURED ASSETS CORP. MORTGAGE
PASS-THROUGH CERTIFICATES SERIES 2004-44
-Defendants/Appellees/Respondents

n

TABLE OF CONTENTS
Questions Presented for Review

1

n

Parties to the Proceeding
Table of Contents

111

Table of Cited Authorities

v

Citations of the Official and Unofficial Reports

1

Statement of the Basis for Jurisdiction

1

Federal Constitutional and Statutory
Provisions Involved

2

Introduction

3

Statement of the Case

6

A. The Substantive Facts and Evidence

6

B. The District Court Proceedings

8

C. The Appellate Proceedings

9

Argument

10

A. Relevant History of Real Property
in California

in

10

B. The Supreme Court Should Adopt
the Reasoning that in Nonjudicial
Foreclosure States when a Debtor
Receives a Chapter 7 Bankruptcy
Discharge pursuant to 11 U.S.C.
§524 the Creditor can only collect on
the amount of the Deed of Trust

12

Conclusion

18

Appendices

A-l

Appx. A: Order (U.S. Dist. Ct., C.D. Cal.,
case no. 18-CV-00409, March 15, 2019)
Appx. B: Judgment (U.S. Dist. Ct. C.D. Cal.
case no. 18-CV-00409, June 20, 2019)

A-2
A-31

Appx. C: Memorandum Disposition (U.S. Ct. A-34
App., 9th Cir., case no. 19-55817, August
7, 2020)
Appx. D: Order (U.S. Ct. App., 9th Cir., case A-40
no. 19-55817)

IV

TABLE OF CITED AUTHORITIES
Cases (alphabetically arranged)
Alaska Tr., LLC v. Ambridge, 372 P.3d
207 (Alaska 2016)

14

Burnett v. Mortg. Elec. Registration Sys.,
Inc., 706 F.3d 1231 (10th Cir. 2013)

14

Fogarty v. Sawyer, 17 Cal. 589 (1861)

12

Goodenow v. Ewer, 16 Cal. 461 (i860)

11

Ho v. Recontrust Co., N.A., 840 F.3d 618
(2016)

14, 15

In re Marriage of Walker, 240 Cal.App.4th 13, 14, 16
986 (2016)
Johnson v. Home State Bank, 501 U.S. 78
(1991)

11

Koch v. Briggs, 14 Cal. 256 (1859)
Obduskey v. Wells Fargo, 879 F.3d.

16, 17

13 , 16, 17, 18

1216 (10th Cir. 2018)
Pribus v. Bush, 118 Cal.App.3d 1003
(1981)

12

Yvanova v. New Century Mortgage Corp.
62 Cal.4th 919 (2016)

14

Constitutional Provisions
U.S. CONST, amend. XIV

5

v

Statutes
11 U.S.C. § 524

2, 6, 8, 12, 15, 16, 17, 19

12U.S.C. § 5211

8

28 U.S.C. § 2101(c)

2

28 U.S.C. § 2111
Cal. Civ. Code § 580d(a)
Cal. Civ. Code § 2903

2

14
11

Cal. Civ. Code § 2924
Cal. Civ. Code § 2924f(8)(A)
Cal. Civ. Code § 2932

12
14
12

Federal Rules of Appellate Procedure
1

Rule 32.1(a)

United States Supreme Court Rules
Rule 13.1

2

Rule 13.3

2

Rule 29.4

2

Other Authorities
Nolo.com/legal-encyclopedia/chart-judicial-v
nonjudicial-foreclosures

vi

17

CITATIONS OF THE OFFICIAL
AND UNOFFICIAL REPORTS
The March 15, 2019, Order of the U.S. District
Court for the Central District of California in case
no. 18-CV-00409, dismissing Petitioner's First
Amended Complaint as to some causes of action with
prejudice and some with leave to amend. It is
included herein as Appendix A.
The June 20, 2019, Judgment of the U.S.
District Court for the Central District of California
in case no. 18-CV-00409, entering Judgment for
Respondents’ after granting Respondents’ Motion to
Dismiss Petitioner's Second Amended Complaint
with prejudice as to the remaining causes of action.
It is included herein as Appendix B.
The August 7, 2020, Memorandum
Disposition as to Petitioner's Appeal affirming the
decisions of the District Court is not certified for
publication and has not been reported. It is included
herein as Appendix C.
The October 7, 2020, Order of the U.S. Court
of Appeals for the Ninth Circuit in case no. 1800409, denying Petitioner’s timely request for a
panel rehearing is not certified for publication, and
has not been reported, but is included in this
petition as Appendix D.
STATEMENT OF THE BASIS
FOR JURISDICTION
The District Court entered judgment on June
20, 2019, and the Ninth Circuit affirmed the
judgment. Petitioner then timely sought rehearing
(panel) but was denied on October 7, 2020. Pursuant
1

to 28 U.S.C. § 1254(l), the U.S. Supreme Court has
jurisdiction over this petition in that the final
judgment in question is from the U.S. Court of
Appeals, and - through this petition - Petitioner is
seeking to vindicate rights arising under the federal
Constitution and statutes.
The initial petition was filed on January 4,
2021, which is less than 90 days after the Ninth
Circuit’s October 7, 2020, denial of rehearing,
meaning this petition was timely. A correction notice
was sent dated January 8, 2021, which provided 60
days to submit this Writ of Certiorari. As such this is
timely. 28 U.S.C. § 2101(c); on or about U.S.
Supreme Court Rules 13.1 and 13.3. The
notifications described in U.S. Supreme Court Rule
29.4 are not required, since the U.S. is not a party
and since Petitioners are not questioning the
constitutionality of any federal or state law.
FEDERAL CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
This petition involves 11 U.S.C. §524(a)(2)
which operates "as an injunction against the
commencement or continuation of an action, the
employment of process, or an act, to collect, recover
or offset any such debt as a personal liability of the
debtor, whether or not discharge of such debt is
waived."
This petition also involves 28 U.S.C. § 2111,
which states, “On the hearing of any appeal or writ
of certiorari in any case, the court shall give
judgment after an examination of the record without
regard to errors or defects which do not affect the
substantial rights of the parties.”
2

INTRODUCTION
The underlying case was regarding the debt of
Petitioner Sally Cirino ("Petitioner") as to her family
home and her legal right to validate the debt and
contest a third parties right to collect on their debt.
Ocwen Loan Servicing, LLC, Western Progressive,
LLC, and Wells Fargo Bank N.A., as Trustee for
holders of IMPAC Secured Assets Corp. Mortgage
Pass-Through Certificates Series 2004-4 ("Wells
Fargo" and collectively "Respondents") are the
Respondents subject to this writ of certiorari.
Petitioner Cirino has possessory interest in
the real property located at 27495 Hidden Trail
Road, Laguna Hills, California, 92653-5875 (the
“Property”). [Petitioners’ Appendices “PA” p. A-4].
On or about October 29, 2004, Petitioner
Cirino and her husband John Cirino executed a
promissory note (“Note”) on the Property in the
amount of $1,320,000.00 [PA p. A-5]. This Note was
to secure a mortgage loan (“Loan”) from Alliance
Bancorp on behalf of GMAC Mortgage, LLC, and
funded as part of a trust for which Wells Fargo, N.A.
is the alleged trustee [PA p. A-5]. On or about
October 29, 2004, a deed of trust (“Deed”) was
executed in the names of John and Sepideh Cirino in
the amount of $1,320,000.00. [PA p. A-5]. On or
about October 29, 2004, Petitioner Cirino and her
husband executed a grant deed conveying the
Property to the Cirino Family Trust (“Trust”) [PA p.
A-5],
Petitioner Cirino also pled that the Note was
discharged in bankruptcy proceedings pursuant to
11 U.S.C. § 524 [PA p. A-5]. On or about February
3

27, 2012, Petitioner Cirino’s husband received a
discharge of his Chapter 7 Bankruptcy, and
Petitioners pled that the Note was discharged as to
him at this time [PA p. A-5]. On or about December
21, 2012, Petitioner Cirino received a discharge of
her Chapter 7 Bankruptcy, case number 801bk22081-MW, and Petitioners allege that the Note
was discharged as to Petitioner Cirino at this time
[PA p. A-5]. Petitioner alleges that at the time of her
discharge, the Note “ceased to exist” and “[o]nly the
Deed remains in effect.” [PA p. A-5].
In June 2014, John Cirino passed away and at
that time. [PA p. A-5-6]. On November 14, 2016,
Defendant Western caused to be recorded a Notice of
Default (“NOD”) and Election to Sell under the Deed
of Trust [PA p. A-6]. The NOD stated that the
delinquency amount for the Property was
$501,728.00 as of November 25, 2016 [PA p. A-6].
The NOD included a Debt Validation Notice (“DVN”)
stating the reinstatement amount was
“$1,351,485.55 plus interest from 08/01/2010.” [PA p.
A-6]. The NOD stated this amount included the
original sum of $1,320,000.00, plus interest and late
charges and also informed Petitioner that they were
“responsible to pay all payments and charges due
under the terms and conditions of the loan
documents which come due subsequent to the date of
this notice including, but not limited to, foreclosure
trustee fees and costs, advances and late charges.”
[PAp. A-6],
On April 7, 2017, Respondents recorded a
Notice of Trustee Sale (“NTS”), no. 2017000139885,
and a trustee sale of the Property was calendared for
May 25, 2017 [PA p. A-6]. The Notice of Trustee Sale
4

stated the total “unpaid balance of the obligation
secured by the property...is $1,792,486.20.” [PA p. A6]. Respondents later continued the Trustee Sale to
March 23, 2018, and served Respondents with a new
Notice of Trustee Sale listing the total obligation as
$1,804,184.99. [PAp.A-6],
As discussed infra, the District Court as well
as the Court of Appeal erred because they held that
the Note, executed by Petitioner Cirino and her now
deceased husband John Cirino, were in full force and
effect and therefore collectable despite both Mr. and
Mrs. Cirino receiving bankruptcy discharges of the
Note [PA p. A-5; A-36]. The legal effect is that it is
no longer enforceable against Petitioner Cirino
personally as she holds the surviving interest.
Petitioner petitioned for rehearing based on
the fact that the Order to her nearly 50 page
Appellants’ Opening Brief was a violation of the Due
Process Clause because it was 2.5 pages and
severely flawed including the decision by the Court
of Appeal that the District Court did not err when it
held that the promissory note was not discharged in
Mr. and Mrs. Cirino’s Chapter 7 bankruptcies [PA p.
A-34-38]. Petitioners’ petition for rehearing was
denied [PA p. A-39-40].
As California, as well as 30 other states, now
utilize promissory notes, as the promise to pay, and
deeds of trust, the instrument creating the
enforcement lien on a residential property,
Petitioner seeks review by this esteemed U.S.
Supreme Court as to the effect of a bankruptcy
discharge as to a promissory note. Petitioner
contends that the District Court as well as the Court
of Appeal erred because the Note was discharged
5

personally therefore, the lawful creditor cannot
collect on more than the lien created by the deed of
trust.
Petitioner is seeking this esteemed Supreme
Court adopt the reasoning that when a promissory
note is discharged pursuant to 11 U.S.C. §524, that
the lawful creditor cannot collect more than the
amount on the deed of trust because the debt has
been discharged personally as to the debtor and only
the lien on the property survives.
STATEMENT OF THE CASE
A. The Substantive Facts and Evidence
Petitioner Cirino and her husband John Cirino
purchased the Property subject to the underlying
litigation located at 27495 Hidden Trail Road,
Laguna Niguel, California, 92653-5875 ("Property")
on or about July 22, 1996, for $1,070,000; this was
their purchase money loan. A full reconveyance of
the purchase money loan was recorded on December
1, 2004, no. 2004001065487. On or about October 29,
2004, Appellant Cirino and her husband John Cirino
executed the Note and Deed on the Property in the
amount of $1,320,000.00 [PA p. A*5]. The Note is the
only instrument that allows for the collection of
interest and penalties. The Deed creates a lien
therefore it is the enforcement mechanism for the
Loan. The Loan had an adjustable rate rider and had
an interest only period.
Petitioner Cirino and her husband fell on hard
times due to the crash of 2008 and in 2012 they both
filed for Chapter 7 bankruptcy and both received
discharges [PA p. A-5]. Pursuant to 11 U.S.C. §524,
a permanent injunction was put in place upon
6

collecting on debts that were subject to the discharge.
At the time the NOD was recorded on November
25, 2016, none of the Respondents were original
parties to the Note or Deed [PA p. A-5-6]. The
reinstatement amount was $1,351,485.55 [PA p. A5]. On April 7, 2017, the NTS was recorded stating
the sale price for the property was $1,792,486.20 [PA
p. A-6]. Between November 25, 2016, and April 7,
2017, the alleged debt ballooned by $441,000.65. The
issue with the debt was the primary reason that
Petitioners’ filed their lawsuit. In California, the
courts have been egregious regarding any issues with
challenging the debt and despite this abhorrent and
unexplained increase, both the District Court and
Court of Appeal found that Petitioners had no valid
claims against Respondents (including no right to an
accounting despite this unexplained increase which
would be the unlawful dispossession of Petitioner's
equity [PA p. A-29]. This blatant attempt to rob
Petitioner of any equity in the home is further
evidenced by the fact that the debt only increased
$11,698.70 between the NTS recorded on April 7,
2017, and March 23, 2018 [PA p. A-6]. Upon the
forced sale of the property would become unjustly
enriched by $441,000.65 which is relevant to
Petitioner's argument in this writ of certiorari as
discussed infra.
Based on a discharge of the promise to pay, how
is it lawful to collect on more than the amount that is
secured by the deed of trust? The courts of
California have not properly addressed this issue
therefore Petitioners claim that this is a case of first
impression for this honorable United States Supreme
Court and it is also relevant to the 30 other States of
7

the Union that utilize nonjudicial foreclosure.
B. The District Court Proceedings
On March 14, 2018, Petitioner filed a Verified
Complaint for Damages [PA p. A-7],
On April 23, 2018, Petitioner filed the verified
FAC prior to any judicial determination on the
verified complaint for the following causes of action:
(l) Violation of 11 U.S.C. §524; (2) Violation of
12 U.S.C. §5211; (3) Violation of the Fair Debt
Collection Practices Act ("FDCPA"); (4) Negligence;
(5) Intentional Misrepresentation; (6) Negligent
Misrepresentation! (7) Fraudulent Concealment; (8)
Constructive Fraud; (9) Civil Conspiracy; (10)
Defamation; (ll) Intentional Infliction of Emotional
Distress; (12) Negligent Infliction of Emotional
Distress; (13) Quiet Title; (14) Violations of Business
and Profession Code §17200, et seq.; and (15)
Demand for an Accounting [PA p. A-7-8].
On May 4, 2018, Respondents filed a Motion
to Dismiss and a Request for Judicial Notice [PA p.
A-8],
On May 15, 2018, Petitioner timely filed an
Opposition to Respondents' Motion to Dismiss [PA p.
A-8] and a Request for Judicial Notice [PA p. A-8].
On May 29, 2018, Respondents filed a Reply
[PA A-8],
On March 15, 2019, the District Court granted
Respondents' Motion to Dismiss with prejudice as to
the following causes of action: (l) Violation of 11
U.S.C. §524; (2) Violation of 12 U.S.C. §5211; (4)
Negligence; (10) Defamation; (ll) Intentional
Infliction of Emotional Distress; and (12) Negligent
8

Infliction of Emotional Distress! (13) Quiet Title! (14)
Violations of Business and Profession Code §17200,
et seq. The District Court granted leave to amend as
to the other causes of action [PA p. A-3-30].
On April 5, 2019, Petitioner filed the verified
SAC for the following causes of action^ (l) Violation
of the FDCPA); (2) Intentional Misrepresentation!
(3) Negligent Misrepresentation! (4) Fraudulent
Concealment; (5) Constructive Fraud! (6) Civil
Conspiracy! and (7) Demand for an Accounting.
On April 16, 2019, Respondents filed a Motion
to Dismiss and a Request for Judicial Notice.
On April 29, 2019, Petitioner timely filed an
Opposition to Respondents' Motion to Dismiss, a
Request for Judicial Notice, and Evidentiary
Objections.
On May 3, 2019, Respondents filed a Reply.
On May 29, 2019, the District Court granted
Respondents' Motion to Dismiss as to Appellants'
SAC with prejudice.
On June 20, 2019 Respondents' lodged their
Order for Judgment. On June 21, 2019, the Court
entered Judgment dismissing the entire case with
prejudice [PA A-32],
On July 15, 2019, Petitioner timely filed a
Notice of Appeal and paid the fee.
C. The Appellate Court Proceedings
On July 15, 2019, Petitioner timely filed a
Notice of Appeal and paid the fee. She also timely
filed her Appellants’ Opening Brief. Respondents
timely filed their Respondents’ Brief.
9

On August 7, 2020, the Court of Appeal issued
its memorandum of decision [PA p. A-34‘37].
On August 21, 2020, Petitioner timely filed a
Petition for Rehearing (panel).
On October 7, 2020, the Court of Appeal
denied the Petition for Rehearing (panel) [PA p. 40].
ARGUMENT
A. Relevant History of Real Property in California
The Declaration of Independence affirms that
people are endowed by their Creator with certain
unalienable rights. A person's right to own property
is a natural right which was protected at common
law as well as codified in California. These rights
were well respected and protected until the economic
crash in 2008. The hand of government tried to
protect those rights by codifying new laws and
allocating trillions of taxpayer dollars for
homeowners to keep their homes however,
government bureaucracy and lack of oversight has
afforded predators such as Respondents to grow
wealthy abusing the system created to help the
homeowners. Petitioner has been a victim of the
Respondents’ abuse of well settled California law as
Respondents have sought the protection of the
nonjudicial foreclosure system without any legal
authority over Petitioner's Property even though
Petitioners are only challenging Respondents
authority as to the Note, Deed, and debt. In any
other realm, a California resident would be able to
challenge a person or entity that claimed to have
authority over their debt as well as personal or real
property if he/she/it were not an original party to the
contract.
10

In early real property transactions, the
mortgage was the only real property security device.
The common law treated the mortgage as a
conveyance of the fee title by the mortgagor to-the
mortgagee subject to the condition subsequent of
payment of the debt. Upon payment, the title was
reconveyed by the mortgagee to the mortgagor. Prior
to payment of the debt, the mortgagee, as holder of
title, was entitled to possession and the rents and
profits produced by the mortgaged property. Upon
breach of the condition, the mortgagee received an
estate in fee simple absolute, free and clear of the
condition. Goodenow v. Ewer{1860) 16 Cal. 461, 466,
1860 WL 938 (i860) [Tracing the evolution of the
mortgage from the common law concept of a
conveyance to the modern concept of a lien]. To
further protect the home purchaser's rights,
California codified the equitable rights of
reinstatement or redemption. Cal. Civ. Code §2903
et seq.
Creditors began using the deed of trust as a
real property security instrument during the 19th
century because of the procedural inhibitions
imposed on the mortgage by the courts and the
attendant impediments to judicial foreclosure of the
debtor’s equity of redemption. Koch v. Briggs (1859)
14 Cal. 256, 262-263! 1859 WL 1213 [confirming the
enforceability of a deed of trust with power of sale as
not being limited by requirement for judicial
foreclosure applicable to a mortgage]. A deed of
trust provided the creditor with more advantages to
protect its financial interest and has become the
preferred security device in California. Cal. Civ.
Code §2924 [The 1917 amendments to this statute
11

applied the same principles to a mortgage with a
power of sale as to a deed of trust].
A note may be sold or transferred, but it
requires an indorsement on the note or a separate
allonge attached to the note and containing the
indorsement. Adolph Ramish, Inc. v. Woodruff
(1934) 2 Cal.App.2d 708, 714; Pribus v. Bush (1981)
118 Cal.App.3d 1003, 1010-1011 [indorsement by
allonge]. The power of sale is a matter of contract
where the person or entity upon whom the power is
conferred has the right and power, upon specified
conditions, to conduct a sale of the property, deliver
a deed to the purchaser, and deliver the proceeds of
the sale to the creditor for whose benefit the power
of sale is given. Cal. Civ. Code §2932; see Fogarty v.
Sawyer (1861) 17 Cal. 589, 592-593. A deed of trust
is a contractual power to sell the property of the
trustor held by a trustee for the benefit of the
beneficiary. Cal. Civ. Code §2924.
B. The Supreme Court Should Adopt the Reasoning
that in Nonjudicial Foreclosure States when a
Debtor Receives a Chapter 7 Bankruptcy Discharge
pursuant to 11 U.S.C. §524 the Creditor can only
collect the amount of Deed of Trust
Petitionerspled in both the verified first
amended complaint and second amended complaint
that the promissory note was discharged in Sepideh
and John Cirino’s Chapter 7 bankruptcies in 2012
therefore the only the amount of the Deed can be
collected. Respondents filed a motion to dismiss as to
the FAC claiming that there was still a debt owed in
rem however, it did not address the effect of the
discharge on the Note.
12

On March 15, 2019, the District Court granted
summary adjudication as to Petitioner's claim for
violation of 11 U.S.C. §524 [PA p. A-12-13]. In its
ruling, the District Court states that Petitioner was
making the argument that the Note was discharged
in bankruptcy however, the District Court failed to
address that Petitioner pled and argued that the
lawful creditor can only collect the amount of the
Deed because it is the only security instrument that
survived as a lien on the property. In her opposition
to the motion to dismiss, Petitioner asserted that the
Court should “adopt the ruling of the 10th Circuit
which held that there is a “critical difference”
between a judicial foreclosure and a nonjudicial
foreclosure in that the nonjudicial foreclosure seeks
only to enforce a security interest. Obduskey v.
Wells Fargo (10th Circuit 2018) 879 F.3d 1216, 1220.
The District Court granted Respondents’
motion to dismiss as to Petitioner's claim for
violation of 11 U.S.C. §524 with prejudice [PA p. A12-13]. The District Court, relying on In re Marriage
of Walker, actually supports Petitioner's position
because the District Court held that the debt was
discharged personally and that the lien survived.
The District Court erred because the consequence of
the discharge of the personal liability leaves only the
Deed as the lien on the property. As such, the
alleged creditor cannot seek to force the sale of the
property for more than the $1,320,000.00 as secured
by the Deed. As such, the District Court erred when
it failed to apply the logical consequence of the
discharge when it ordered the cause of action
dismissed without prejudice because it affirmed that
a creditor may seek payment in excess of the
security lien (Deed) on the property without
13

providing any explanation as to how it is possible
when there is no longer a promise to pay (Note) that
is enforceable against Petitioner Cirino [PA p. A-1213]. In re Marriage of Walker (2016) 240 Cal.App.4th
986, 994.
Petitioner made the same argument on
appeal. The Court of Appeal affirmed the dismissal
by making the sole determination the allegations
regarding the bankruptcy discharge were conclusory
[PAp. A-36].
California is a nonjudicial foreclosure state.
Yvanova v. New Century Mortgage Corp. (2016) 62
Cal.4th 919, 926. The California Supreme Court also
affirmed that the deed of trust is the security
instrument for a mortgage loan. Id at 927. At a
nonjudicial foreclosure sale, the bidder is only
purchasing the lien. Cal. Civ. Code §2924f(8)(a).
Further, California does not allow for deficiency
judgments after a nonjudicial foreclosure. Ho v.
Recontrust Co., N.A. (2016) 840 F.3d. 618, 622. As
such, the entire debt is extinguished upon
foreclosure even if the recovery is less than the debt,
/c/at 622; Cal. Civ. Code §580d(a); see Burnett v.
Mortg. Elec. Registration Sys., Inc., 706 F.3d 1231,
1239 (10th Cir. 2013) ("[A] non-judicial foreclosure
does not result in a mortgagor's obligation to pay
money — it merely results in the sale of property
subject to a deed of trust."); Alaska Tr., LLC v.
Ambridge, 372 P.3d 207, 228 (Alaska 2016) (Winfree,
J., dissenting) (noting that non-judicial foreclosure
"does not in and of itself collect a debt, but rather
calls for the vesting and divesting of title to real
property according to the parties' prior agreement"
(internal quotation marks omitted)). Further, in Ho
14

the California Supreme Court affirmed that
nonjudicial foreclosure was the enforcement of the
security and not debt collection. Ho at 622.
When California enacted nonjudicial
foreclosure, the business practice was the bank
would fund the loan therefore it would hold the
promissory note and the deed of trust. The standard
operating procedure was for a bank to foreclose after
a homeowner was 90 days in default. The monies
owed would be well within the amount allotted
under the deed of trust. After the crash of the
economy in 2008, entities were unlawfully
foreclosing on amounts in excess of the deed of trust
due to delays in the foreclosure process where the
debt allegedly increased in excess of the amount
owed under the deed of trust. It became common
practice, but it does not make it lawful. Pursuant to
11 U.S.C. §524, both John and Sepideh Cirino
received bankruptcy discharges which muddies the
waters even more because Petitioners claim that the
promissory note was discharged as a matter of law.
And even the Court in its dismissal of this cause of
action made it clear that the debt was discharged
against her personally [PA p. A-12-13]. As
Petitioners deed of trust was for $1,320,000.00, on
what basis can Respondents seek to collect
$1,804,184.99? [PA p. A-6]. Neither the District
Court nor the Court of Appeal has addressed or
explained how this is possible.
To understand why it is unlawful for
Respondents to seek to foreclose in excess of the
deed of trust due to the Cirno’s Chapter 7
bankruptcy discharges, one must take a closer look
at the reasoning of In re Marriage of Walker to
15

ascertain how the Court erred in its reasoning and
why the reasoning of Obduskey, that in nonjudicial
foreclosure you cannot collect on more than the deed
of trust, should apply in California as well as to the
other nonjudicial foreclosure states when there is a
Chapter 7 bankruptcy discharge of the promise to
personally pay on the debt as memorialized in the
promissory note. Obduskey v. Wells Fargo (2018)
879 F.3d. 1216.
In the matter of In re Marriage of Walker, the
Court of Appeal held that "[A] bankruptcy discharge
extinguishes only one mode of enforcing a claim —
namely, an action against the debtor in personam —
while leaving intact another — namely, an action
against the debtor in rem." Johnson v. Home State
Bank (1991) 501 U.S. 78, 84 [A matter where the
debtor received a Chapter 7 discharge as to his
promissory notes therefore when he filed for Chapter
13, the promissory notes were not subject to the plan
because they were discharged against him
personally]). The holdings in both In re Marriage of
Walker and Johnson affirm that in the state of
California the promissory note is discharged against
the debtor in a Chapter 7 bankruptcy discharge.
This reasoning must apply in the present case and
this honorable Supreme Court must hold that the
promissory note was discharged against John and
Sepideh Cirino in 2012 and that only the lien
pursuant to the deed of trust is enforceable. In re
Marriage of Walker at 84.
The District Court clearly erred when it
dismissed Petitioner's claim for violation of 11
U.S.C. §524, because it is clear that in both In re
Marriage of Walker and Johnson that the promise to
16

pay (promissory note) was discharged and that only
the lien (deed of trust) survives. Based on a
discharge of the promise to pay, how is it lawful to
collect on more than the amount that is secured by
the deed of trust especially when the bidder is only
purchasing the lien? The courts of California have
not properly addressed this issue therefore
Petitioner claims that this is a case of first
impression for this honorable United States
Supreme Court and it is also relevant to the over 30
other States of the Union that engage in nonjudicial
foreclosure. Nolo, com/legal-encyclopedia/chart juducial-vnonjudicial-forclosures.
Petitioner asserts that this Court should apply
the reasoning of the 10th Circuit Court of Appeal in
Ohduskey to this issue because the Court of Appeal
held that when seeking a nonjudicial foreclosure the
lawful creditor cannot seek more than the amount of
the deed of trust because that would be debt
collecting. Obduskey v. Wells Fargo, N.A., (10th
Circuit 2018) 879 F.3d 1216, 1220 [Holding that
pursuing nonjudicial foreclosure was not debt
collecting under the Fair Debt Collection Practices
Act]. The Obduskey case was from Colorado which
is a nonjudicial foreclosure state. Id at 1220. Unlike
California, a mortgagee can seek a deficiency
judgment against the mortgagor. Id. At 1221.
Whether or not the state can seek a deficiency
judgment is not relevant here because, as discussed
supra, the caselaw verifies that the promise to pay
(promissory note) was discharged in bankruptcy.
As there is no issue regarding any potential
deficiency, the reason why this esteemed Supreme
Court should adopt the reasoning in Obduskey to
17

California and similarly situated nonjudicial
foreclosure states when there is a discharge
pursuant to 11 U.S.C. §524 is because only the lien
survives which is the deed of trust. The deed of
trust does not afford for the accrual of interest
because the promise to pay has been extinguished.
As such, there is no legal way to force a mortgagor to
pay more than what is on the deed of trust.
The District Court’s order on the motion to
dismiss the verified first amended complaint applied
its flawed reasoning regarding Petitioner’s
discharged of the Note throughout the other causes
of action [PAp. A-18-20, 22, 23, 26-29],
The courts in California have failed to explain
how the discharge of a promissory note personally
via 11 U.S.C. §524 allows the creditor to engage in
nonjudicial foreclosure for amounts in excess of the
deed of trust. The courts treat the promissory note
like a ghost ship sitting off the coast that stealthy
eases back into port when it is time to dispossess a
debtor of his/her property in excess of the deed of
trust which is unjust enrichment because it is taking
monies that are not owed personally by the debtor
through the forced sale of the property. As such, it
should be the rule of law for the United States that
when there is a discharge of the promissory note
against a debtor personally, the mortgagee cannot
collect on more than the amount in the deed of trust.
CONCLUSION
For the reasons set forth supra, Petitioner
Sepideh Cirino requests that the Supreme Court
issue a Writ of Certiorari to the District Court,
directing it to vacate its ruling for the dismissal of
18

are not owed personally by the debtor through the forced
sale of the property. As such, it should be the rule of law for
the United States that when there is a discharge of the
promissory note against a debtor personally, the mortgagee
cannot collect on more than the amount in the deed of trust.
CONCLUSION
For the reasons set forth supra, Petitioner Sepideh
Cirino requests that the Supreme Court issue a Writ of
Certiorari to the District Court, directing it to vacate its ruling
for the dismissal of Petitioner's claim for violation of 11
U.S.C. §524 as well as rectify its ruling as to the other causes
of action where the District Court applied its flawed
reasoning.
Respectfully submitted,
March oH ,2021 v <)\ VQ
WVv-------

Sepideh Cirino in Pro Se
(949) 238-3774
Sally.cirino@yahoo.com

19

